APPENDIX TABLE OF CONTENTS
Opinion and Order of the United States District
Court for the Northern District of Oklahoma
(March 1, 2018) ................................................... 1a
Complaint
(August 25, 2017) ............................................. 15a

Res.App.1a
OPINION AND ORDER OF THE
UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF OKLAHOMA
(MARCH 1, 2018)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
________________________
FAYE STRAIN, AS GUARDIAN
OF THOMAS BENJAMIN PRATT,

Plaintiff,
v.
VIC REGALADO, IN HIS OFFICIAL CAPACITY,
BOARD OF TULSA COUNTY COMMISSIONERS
OF TULSA COUNTY, ARMOR CORRECTIONAL
HEALTH SERVICES, INC., CURTIS MCELROY,
D.O., PATRICIA DEANE, LPN,
and KATHY LOEHR, LPC,

Defendants.

________________________

Case No. 17-CV-0488-CVE-FHM
Before: Claire V. EAGAN,
United States District Judge.
Now before the court are motions to dismiss filed
by all defendants: Armor Correctional Health Services
(Armor) (Dkt. # 14); Patricia Deane, LPN (Dkt. # 15);
Kathy Loehr, LPC (Dkt. # 16); Curtis McElroy, D.O.

Res.App.2a
(Dkt. # 17); and Vic Regalado and the Board of County
Commissioners (BOCC) of Tulsa County (Dkt. # 21).
I.
Plaintiff Faye Strain is the duly appointed guardian, and mother, of Thomas Benjamin Pratt. Dkt. # 2,
at 1. In her complaint (Dkt. #2), plaintiff alleges the
following: on December 11, 2015, Pratt was booked
into the David L. Moss Criminal Justice Center, often
referred to as the Tulsa County Jail (the Jail). Id. at 5.
On December 12, 2015, at 7:39 a.m., Pratt submitted a medical sick call note requesting to speak to a
nurse about “detox meds.” Id. Later that day, at 12:10
p.m., Pratt submitted a second sick call note, stating,
MY NAME IS TOMMY PRATT I CAME IN
YESTERDAY AND STARTED HAVING
WITHDRAWLS [sic] I NEED TO TRY AND
GET SOME DETOX MEDS
THANKYOU [sic]

Id. At 1:05 p.m., a nurse and employee of defendant
Armor—a private corporation responsible, in part, for
providing medical and mental health services to Pratt
while he was in custody of the Tulsa County Sheriff’s
Office (TCSO)—conducted a drug and alcohol assessment of Pratt. Id. Pratt advised the nurse that he had
a habit of drinking fifteen-to-twenty beers a day for at
least the previous ten years. Id. The assessment tool
indicates that Pratt was experiencing constant nausea,
frequent dry heaves and vomiting, moderate tremors,
anxiety, restlessness, drenching sweats, and severe,
diffuse aching of the joints and muscles. Id. at 5-6.
Accordingly, Pratt was placed on a “Librium protocol”
(a sedative tranquilizer frequently used for patients

Res.App.3a
experiencing alcohol withdrawal) and “seizure precautions” were ordered. Id. at 6. At 1:48 p.m., Pratt was
admitted to the Jail’s medical unit, where a different
nurse conducted a “mental health infirmary admission
assessment.” Id. The nurse noted that Pratt was nauseated, slumped over, anxious, fearful, and “unsteady on
his feet,” and that he was a “risk for injury” due to his
detoxification and “high blood pressure.” Id.
On December 13, 2015, Pratt was again placed on
seizure precautions, which included an order that his
vital signs be taken every eight hours. Id.1
On December 14, 2015, at approximately 2:08 a.m.,
defendant Patricia Deane, LPN, conducted another
drug and alcohol assessment of Pratt. Id. The assessment
tool indicated that he was experiencing constant nausea,
frequent dry heaves and vomiting, severe tremors even
with arms not extended, acute panic states as seen in
severe delirium or acute schizophrenic reactions, restlessness, drenching sweats, continuous hallucinations,
and disorientation for place or person. Id. at 6-7. Later
that day, a nurse practitioner gave a phone order to
start a Valium protocol. Id. at 7. At 3:44 p.m., an
unidentified Armor employee took Pratt’s vital signs
and noted that he was “tearing up” his cell and stating
that he was “locked in the store.” Id.
In a note dated December 14, 2015, and placed in
the Armor medical chart, defendant Curtis McElroy,
D.O., stated,
Pt seen and evaluated. Came in 12/11/15
with alcohol abuse and placed on Librium
protocol for the alcohol withdrawal. Pt
1 This order, however, was not complied with. Id. at 8.

Res.App.4a
switched to [V]alium and received first dose
this morning. Pt reported to be found on floor
pulling up tile with approximately 2 cm
forehead laceration. Small, < 1 cm laceration
left lateral elbow area and a laceration < 1cm
on right mid right posterior forearm. Some
scratches on dorsum of nose. No other facial
injury. Pt awake, confused, talking about
what movie are we watching tonight. No
history of witnessed fall or pt inflicting
injury to himself. Pool of blood under sink in
cell.

Id. at 8-9.2
On December 15, 2015, defendant Kathy Loehr,
LPC, conducted an initial mental health evaluation of
Pratt. Id. Loehr observed that he was making slow,
shaky movements, and presented with a wound on his
forehead from an apparently unintentional, self-inflicted
injury sustained on December 14. Id. at 11. Loehr was
unable to complete her evaluation, however, because
Pratt had difficulty answering questions. Id. Later that
afternoon, at 3:40 p.m., McElroy logged a second note
in the Armor medical chart, stating that Pratt was
reported to “have been found underneath sink [in his
cell] with laceration [on] mid-forehead.” Id.
On December 16, 2016, at approximately 12:00
a.m., a nurse observed that Pratt “would not get up.”
Id. at 12. Just before 1:00 a.m., a detention officer
noticed him lying on his bed and not moving; the
2 Also on December 14, 2015, a nurse reported that Pratt was angry,
anxious, confused, reaching into space, had impaired short term
memory, and needed assistance with activities of daily living. Id. at
10.

Res.App.5a
detention officer called for a nurse. Id. at 12. Upon
entering Pratt’s cell, the nurse found that he had no
pulse or respiration and was completely unresponsive.
Id. She initiated CPR and called a medical emergency
at around 1:00 a.m. Id. Shortly thereafter, first responders arrived; Pratt was resuscitated at around 1:15 a.m.
and was rushed to St. John Medical Center in Tulsa,
Oklahoma. Id.
According to the Emergency Medical Services
Authority (EMSA) report, Pratt had suffered a cardiac
arrest. Id. The EMSA report also stated that: the Jail
medical staff reported that Pratt hit his head “four
days ago” and has been non-verbal and lethargic ever
since; Pratt has been going through withdrawals and
been on suicide watch; and he had a large hematoma
to his forehead from his fall “four days ago.” Id. at 12-13.
Pratt was admitted to the hospital, where he
remained until January 1, 2016. Id. Upon discharge,
he was diagnosed with cardiopulmonary arrest secondary to presumed seizure during incarceration, acute
renal failure secondary to hypotension and rhabdomyolysis, Todd’s paralysis, agitation, anoxic brain injury,
AKI secondary to hypotension and rhabdomyolysis,
hyponatremia, acute transaminitis, and acute head
laceration. Id. at 13.
Before Pratt was admitted to the Jail on December
11, 2015, he had no history of seizure disorder, brain
damage, or severe mood swings. Id. Since suffering
cardiac arrest at the Jail, he has become permanently
disabled. Id. He continues to suffer from severe seizure
disorder, memory loss, extreme mood swings and anger,
and communication deficits and delays. Id. He is now
unable to work, and lives with his parents. Id. He

Res.App.6a
requires assistance with everyday life activities and is
incapable of safely living on his own. Id.
Plaintiff alleges that, at the Jail, there are longstanding, systemic deficiencies in medical and mental
health care services, about which Former Sheriff Stanley
Glanz knew. Id. at 14. Plaintiff also alleges: in 2007,
the National Commission on Correctional Health Care
(NCCHC) audited the Jail and concluded that there
were numerous deficiencies in the care provided to
inmates, including failure to address health care needs
in a timely manner. Id. In 2009, the Oklahoma State
Department of Health cited TCSO for a violation of
the Oklahoma Jail Standards in connection with the
suicide death of a schizophrenic inmate. Id. at 15. In
August 2009, the American Correctional Association
conducted a mock audit of the Jail, which revealed that
it was non-compliant with mandatory health standards.
Id. In response to the audit, Elizabeth Gondles, Ph. D.,
produced a report to identify issues and suggest improvements. Id. The issues Gondles identified included: understaffing of medical personnel; deficiencies in doctor/PA
coverage; lack of health services oversight and supervision; failure to provide new health staff with formal
training; failure to provide timely health appraisals to
inmates; and 313 health-related grievances within the
twelve months before the report was written. Id. at 16.
Gondles concluded that these issues were a result of
the “lack of understanding of correctional healthcare
issues by jail administration and contract oversight
and monitoring of the private provider.” Id. To address
these issues, Gondles “strongly suggested” that the Jail
establish a “central Office Bureau of Health Services,”
to be staffed by a “TCSO-employed Health Services

Res.App.7a
Director.” Id. TCSO, however, did not implement
Gondles’s recommendations. Id.3
Plaintiff further alleges that, in 2010, the NCCHC
conducted a second audit of the Jail’s health system,
after which the NCCHC placed the Jail on probation.
Id. at 17. The NCCHC found numerous deficiencies
with the Jail’s health services program, including: the
quality assurance multi-disciplinary committee does not
identify problems, implement and monitor corrective
action, “nor study its effectiveness;” there were several
inmate deaths in the previous year; the clinical mortality
reviews were poorly performed; the responsible physician does not document his review of the registered
nurse’s health assessment, or conduct clinical chart
reviews to determine if clinically appropriate care is
ordered and implemented by attending health staff;
diagnostic tests and speciality consultations are not
completed in a timely manner and are not ordered by
the physician; if changes are indicated, the changes
are not implemented; when a patient returns from an
emergency room, the physician does not see the patient,
review the discharge orders, or issue follow-up orders
3 Plaintiff’s complaint alleges further that, on October 28, 2010,
Assistant District Attorney Andrea Wyrick wrote an email to
TSCO’s Risk Manager voicing concerns about whether the “Jail’s
medical provider, [ . . . ] CHMO, a subsidiary of CHC, was complying
with its contract.” Id. In addition, plaintiff’s complaint alleges
that Ms. Wyrick stated, “This is very serious, especially in light
of the three cases we have now—what else will be coming? It is one
thing to say we have a contract . . . to cover medical services. . . . It
is another issue to ignore any and all signs we receive of possible
[medical] issues. . . . ” Id. “CHMO,” however, is not a defendant
in this case, and plaintiff fails to explain what CHMO or CHC
are. These facts lead the Court to believe that this portion of
plaintiff’s complaint is unrelated to these defendants.

Res.App.8a
as clinically needed; potentially suicidal inmates are
not checked regularly, and follow-up with them has been
poor; and training for custody staff has been limited.
Id. Sheriff Glanz read only the first two or three pages
of the report and is unaware of any policies or practices changing at the Jail in response to it. Id. at 18.
Additional historical allegations include: that
over a period of many years, Tammy Harrington,
R.N., former director of nursing at the Jail, observed
and documented deficiencies in the delivery of health
care services to inmates, including chronic failure to
triage inmates’ requests for medical and mental health
assistance, chronic lack of supervision of clinical staff,
and repeated failures of medical staff to alleviate
known and significant deficiencies in the health
services program. Id. On September 29, 2011, the
United States Department of Homeland Security’s
Office of Civil Rights and Civil Liberties reported its
findings in connection with an audit of the Jail’s medical system pertaining to the United States Immigration
and Customs Enforcement detainees, which found
numerous deficiencies. Id. After the report was issued,
Harrington did not observe any meaningful changes
in health care policies or practices at the Jail. Id. On
October 27, 2011, an inmate died at the Jail as a result
of “inhumane treatment and medical neglect.” Id. A
federal jury has since entered a verdict holding Sheriff
Regaldo liable in his official capacity for the unconstitutional treatment of this inmate. Id. at 19. In the
wake of this inmate’s death, Sherrif Glanz made no
meaningful improvement to the Jail’s medical system.
Id. And, just months after this inmate died, another
inmate died due to “deficient care.” Id. On November
18, 2011, the Jail’s retained medical auditor issued a

Res.App.9a
report to former Sheriff Glanz, finding multiple deficiencies with the Jail’s medical delivery system, including
documented deviations from protocols which increase
the potential for preventable morbidity and mortality. Id.
The auditor noted six inmate deaths, finding deficiencies in the care provided to each. Id. As part of a 2012
corrective action review, the auditor found: delays for
medical staff and providers to get access to inmates;
no sense of urgency in attitude to see patients, or have
patients seen by providers; failure to follow NCCHC
guidelines to get patients to providers; and not enough
training or supervision of nursing staff. Id. at 20. In
November 2013, BOCC retained Armor as the new
private medical provider for the Jail. Id.
On August 25, 2017, plaintiff filed her complaint
(Dkt. # 2), alleging that: (1) all defendants, (including
Sheriff Regalado in his official capacity, and ARMOR
under a theory of municipal liability), pursuant to 42
U.S.C. § 1983, violated Pratt’s Eighth Amendment right
to be free from cruel and unusual punishment (count
one); (2) defendants Armor, McElroy, Deane, and Loehr
are liable in common-law negligence for failing to provide
Pratt adequate care (count two); and (3) all defendants
violated Pratt’s right to be free from cruel and unusual
punishment under Article II § 9 of the Constitution of
the State of Oklahoma (count three). Id. at 20-26. Plaintiff seeks actual and punitive damages. Id. at 26.
II.
In considering a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6), a court must determine
whether the claimant has stated a claim upon which
relief may be granted. A motion to dismiss is properly
granted when a complaint provides no “more than labels

Res.App.10a
and conclusions, and a formulaic recitation of the
elements of a cause of action.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007). A complaint must
contain enough “facts to state a claim to relief that is
plausible on its face” and the factual allegations “must
be enough to raise a right to relief above the speculative level.” Id. (citations omitted). “Once a claim has
been stated adequately, it may be supported by
showing any set of facts consistent with the allegations in the complaint.” Id. at 562. Although decided
within an antitrust context, Twombly “expounded the
pleading standard for all civil actions.” Ashcroft v.
Iqbal, 556 U.S. 662, 683 (2009). For the purpose of
making the dismissal determination, a court must
accept all the well-pleaded allegations of the complaint as true, even if doubtful in fact, and must
construe the allegations in the light most favorable to
a claimant. Twombly, 550 U.S. at 555; Alvarado v.
KOB-TV, L.L.C., 493 F.3d 1210, 1215 (10th Cir. 2007);
Moffett v. Halliburton Energy Servs., Inc., 291 F.3d
1227, 1231 (10th Cir. 2002). However, a court need not
accept as true those allegations that are conclusory in
nature. Erikson v. Pawnee Cnty. Bd. of Cnty. Comm’rs,
263 F.3d 1151, 1154-55 (10th Cir. 2001). “[C]onclusory
allegations without supporting factual averments are
insufficient to state a claim upon which relief can be
based.” Hall v. Bellmon, 935 F.2d 1106, 1109-10 (10th
Cir. 1991).
In addition, where “a § 1983 plaintiff includes a
government agency and a number of government actors
sued in their individual capacities, it is particularly
important . . . that the complaint make clear exactly
who is alleged to have done what to whom, to provide
each individual with fair notice [under Twombly and

Res.App.11a
Federal Rule of Civil Procedure 8(a)(2)] as to the basis
of the claims against him or her, as distinguished from
collective allegations against the state.” Bark v. Chacon,
504 Fed. App’x 741, 745 (10th Cir. 2012)4 (quoting
Robbins v. Oklahoma, 519 F.3d 1242, 1249-50 (10th
Cir. 2008)). “When a plaintiff instead uses ‘either the
collective term ‘Defendants’ or a list of defendants
named individually but with no distinction as to what
acts are attributable to whom, it is impossible for any
of these individuals to ascertain what particular unconstitutional acts they are alleged to have committed.’”
Id. (quoting Robbins, 519 F.3d at 1250).
III.
Count one of plaintiff’s complaint alleges that all
defendants deprived Pratt of his Eighth Amendment
right to be free from cruel and unusual punishment,
as their deliberate indifference to his medical needs
caused the permanent disabilities from which he now
suffers. Dkt. # 2, at 21. In their motions to dismiss, each
defendant responds that plaintiff’s complaint fails to
state a claim for an Eighth Amendment violation. Dkts.
## 14, at 9; 15, at 9; 16, at 9; 17, at 9; 21, at 15.
“‘Deliberate indifference to serious medical needs
of prisoners’ violates the Eighth Amendment.’” Redmond
v. Crowther, ___ F.3d ___, ___, 2018 WL 798283, at *6
(10th Cir. Feb. 9, 2018) (quoting Estelle v. Gamble,
429 U.S. 97, 104-05 (1976)). “To establish an Eight
Amendment claim based on inadequate medical care,
the prisoner must prove both an objective component
4 This and other cited unpublished decisions are not precedential,
but may be cited for their persuasive value. See Fed. R. App. P.
32.1; 10th Cir. R. 32.1.

Res.App.12a
and a subjective component.” Id. (citing Self v. Crum,
439 F.3d 1227, 1230-31 (10th Cir. 2006)). “The objective
component requires showing the alleged injury is ‘sufficiently serious.’” Id. (citing Crum, 439 F.3d at 1230).
“A delay in medical care is only sufficiently serious if
the plaintiff can show the delay resulted in substantial harm.” Id. (citing Mata v. Saiz, 427 F.3d 745, 751
(10th Cir. 2005)). “A ‘lifelong handicap, permanent loss,
or considerable pain may satisfy the substantial harm
requirement.’” Id. (quoting Mata, 427 F.3d at 751).
“The subjective component requires showing the prison
official ‘knew [the inmate] faced a substantial risk of
harm and disregarded that risk by failing to take reasonable measures to abate it.’” Id. at *7 (quoting Martinez
v. Beggs, 563 F.3d 1082, 1088-89 (10th Cir. 2009)). “The
subjective prong is met if prison officials intentionally
deny[] or delay[] access to medical care or intentionally
interfere[] with the treatment once prescribed.” Id.
(internal quotation omitted).
As an initial matter, count one of plaintiff’s complaint is drafted in precisely the fashion Robbins
proscribes; i.e. it is a § 1983 claim against a government
agency and a number of individual government actors—
referred to collectively as “defendants”—that fails to
specify who is alleged to have done what to whom.
Dkt. # 2, at 21-22. Under Robbins, therefore, count one
of plaintiff’s complaint fails to provide the individual
defendants with fair notice as to the basis of the claim
against them, to which they are entitled under Fed. R.
Civ. P. 8(a)(2). Moreover, even assuming, arguendo,
that count one of plaintiff’s complaint does provide
fair notice to defendants, it nevertheless fails to state
a claim for an Eighth Amendment violation because it
does not allege that any defendant disregarded a risk

Res.App.13a
to Pratt, intentionally denied or delayed his access to
medical care, or interfered with his treatment once it
was prescribed.5
Accordingly, plaintiff’s Eighth Amendment claim
(count one) must be dismissed as against all defendants.
IV.
Plaintiff’s remaining claims for common-law negligence against Armor, McElroy, Deane, and Loehr
(count two), and violation of Article II § 9 of the Constitution of the State of Oklahoma against all defendants
(count three), arise under state law. Pursuant to 28
U.S.C. § 1367(a), federal courts may exercise supplemental jurisdiction over claims related to claims over
which it has original jurisdiction. A district court may
decline to exercise supplemental jurisdiction if it has
dismissed all claims over which it has original jurisdiction. 28 U.S.C. § 1367(c)(3); see Gaston v. Ploeger,
297 F. App’x 738, 746 (10th Cir. 2008) (stating that
§ 1367(c)(3) expressly permits a district court to decline
to exercise supplemental jurisdiction over remaining
state law claims after granting summary judgment in
favor of defendant on federal law claims). This Court
does not have original jurisdiction over plaintiff’s
common-law negligence or Oklahoma constitutional
claim because they arise under state law, and there is
no evidence that diversity jurisdiction is present.
The decision to exercise supplemental jurisdiction
is discretionary, but courts should consider “the nature
and extent of pretrial proceedings, judicial economy,
5 Rather, plaintiff’s complaint alleges only, in conclusory fashion,
that defendants failed to “provide adequate medical care” to Pratt.
Id. at 21.

Res.App.14a
convenience, and [whether] fairness would be served
by retaining jurisdiction.” Anglemyer v. Hamilton
Cnty. Hosp., 58 F.3d 533, 541 (10th Cir. 1995) (quoting
Thatcher Enters. v. Cache Cnty. Corp., 902 F.2d 1472,
1478 (10th Cir. 1990)). The Court finds that the extent
of the pretrial proceedings does not outweigh the
interests that would be served by having plaintiff’s state
law claims tried in a state court. Judicial economy
would be served by having the Oklahoma courts
resolve issues of Oklahoma law, and the parties have
an interest in having their Oklahoma law disputes
decided in a court intimately familiar with that law.
Further, the Tenth Circuit has “repeatedly recognized
that this is the preferred practice.” Gaston, 297 F.
App’x at 746; see also Smith v. City of Enid, 149 F.3d
1151, 1156 (10th Cir. 1998) (“When all federal claims
have been dismissed, the court may, and usually should,
decline to exercise jurisdiction over any remaining state
law claims.”). The Court, therefore, declines to exercise
supplemental jurisdiction over plaintiff’s remaining
state law claims.
IT IS THEREFORE ORDERED, that all defendants’ motions to dismiss—Armor Correctional Health
Services (Dkt. # 14); Patricia Deane, LPN (Dkt. # 15);
Kathy Loehr, LPC (Dkt. # 16); Curtis McElroy, D.O.
(Dkt. # 17); and Vic Regalado and the Board of County
Commissioners of Tulsa County (Dkt. # 21)—are granted.
DATED this 1st day of March, 2018.
/s/ Claire V. Eagan
United States District Judge

Res.App.15a
COMPLAINT
(AUGUST 25, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
________________________
(1) FAYE STRAIN, AS GUARDIANS
THOMAS BENJAMIN PRATT,

OF

Plaintiff,
v.
(1) VIC REGALADO, IN HIS OFFICIAL CAPACITY,
(2) BOARD OF COUNTY COMMISSIONERS OF
TULSA COUNTY, (3) ARMOR CORRECTIONAL
HEALTH SERVICES, INC., (4) CURTIS MCELROY,
D.O., (5) PATRICIA DEANE, LPN, AND
(6) KATHY LOEHR, LPC,

Defendants

________________________

Case No.: 17-cv-488-CVE-FHM
COMES NOW the Plaintiff Faye Strain (“Plaintiff”)
as guardian of Thomas Benjamin Pratt (“Mr. Pratt”),
and for her Complaint against Defendants alleges and
states as follows:
PARTIES
1. Plaintiff Faye Strain is the duly appointed guardian of Mr. Pratt. Plaintiff is also Mr. Pratt’s mother.

Res.App.16a
2. Defendant Vic Regalado (“Sheriff Regalado” or
“Regalado”) is the current Sheriff of Tulsa County,
Oklahoma, residing in Tulsa County, Oklahoma and
acting under color of state law. Defendant Regalado is
sued purely in his official capacity. It is well-established,
as a matter of Tenth Circuit authority, that a § 1983
claim against a county sheriff in his official capacity
“is the same as bringing a suit against the county.”
Martinez v. Beggs, 563 F.3d 1082, 1091 (10th Cir. 2009).
See also Porro v. Barnes, 624 F.3d 1322, 1328 (10th
Cir. 2010); Bame v. Iron Cnty., 566 F. App’x 731, 737
(10th Cir. 2014). Furthermore, Rule 25(d) of the Federal Rules of Civil Procedure provides that “[a]n action
does not abate when a public officer who is a party in
an official capacity dies, resigns, or otherwise ceases
to hold office while the action is pending”, rather “[t]he
officer’s successor is automatically substituted as a
party.” As Tulsa County Sheriff, Regalado is, in essence,
a governmental entity. As Tulsa Sheriff, in his official
capacity, Sheriff Regalado is responsible for County/
Tulsa County Sheriff’s Office (“TCSO”) rules, regulations, policies, practices, procedures, and/or customs,
including the policies, practices, procedures, and/or
customs that violated Mr. Pratt’s rights as set forth in
this Complaint. Sheriff Regalado is the successor in
office to former Sheriff Stanley Glanz (“Former Sheriff
Glanz”).
3. Defendant Board of County Commissioners of
Tulsa County (“BOCC”) is a statutorily-created governmental entity. 57 Okla Stat. § 41 provides that “[e]very
county, by authority of the board of county commissioners and at the expense of the county, shall have a jail
or access to a jail in another county for the safekeeping
of prisoners lawfully committed.” (emphasis added).

Res.App.17a
BOCC must discharge its responsibilities to the Tulsa
County Jail in a constitutional manner. BOCC is
properly sued under the provisions of the Oklahoma
Governmental Tort Claims Act (“GTCA”).
4. Defendant Armor Correctional Health Services,
Inc. (“ARMOR”) is a foreign corporation doing business
in Tulsa County, Oklahoma and was at all times relevant hereto responsible, in part, for providing medical
and mental health services and medication to Mr.
Pratt while he was in the custody of TCSO. ARMOR
was additionally responsible, in part, for creating and
implementing policies, practices, and protocols that
govern the provision of medical and mental health care
to inmates at the Tulsa County Jail (“Jail”), and for
training and supervising its employees. ARMOR was,
at all times relevant hereto, endowed by Tulsa County
with powers or functions governmental in nature. As
such, ARMOR became an agency or instrumentality of
the state and subject to its Constitutional limitations.
5. Defendant Curtis McElroy, D.O. (“Dr. McElroy”)
was at all time relevant hereto, an employee and/or
agent of ARMOR/TCSO, who was, in part, responsible
for overseeing Mr. Pratt’s health and well-being, and
assuring that Mr. Pratt’s medical/mental health needs
were met, during the time he was in the custody of
TCSO. At all times pertinent, Dr. McElroy was acting
within the scope of his employment and under color of
State law. Dr. McElroy is being sued in his individual
capacity.
6. Defendant Patricia Deane, LPN (“Nurse
Deane”), was, at all times relevant hereto, an employee
and/or agent of ARMOR/TCSO, who was, in part, responsible for overseeing Mr. Pratt’s health and well-being,
and assuring that Mr. Pratt’s medical/mental health

Res.App.18a
needs were met, during the time he was in the custody
of TCSO. At all times pertinent, Nurse Deane was
acting within the scope of her employment and under
color of State law. Nurse Deane is being sued in her
individual capacity.
7. Defendant Kathy Loehr (“Ms. Loehr”), was, at
all times relevant hereto, an employee and/or agent of
ARMOR/TCSO, who was, in part, responsible for overseeing Mr. Pratt’s health and well-being, and assuring
that Mr. Pratt’s medical/mental health needs were
met, during the time he was in the custody of TCSO.
At all times pertinent, Ms. Loehr was acting within
the scope of her employment and under color of State
law. Ms. Loehr is being sued in her individual capacity.
JURISDICTION AND VENUE
8. The acts giving rise to this lawsuit occurred in
Tulsa County, State of Oklahoma, within this judicial
district.
9. Prior to bringing this Complaint, Plaintiff
complied with the tort claim notice provisions of the
Oklahoma Government Tort Claim Act (“GTCA”), 51
O.S. § 151, et seq by notifying Defendants of her intent
to file state law claims in connection with the events
and injuries described herein. The GTCA process has
been exhausted. This action is timely brought pursuant
to 51 O.S. § 157.
10. The jurisdiction of this Court is invoked pursuant to 28 U.S.C. § 1343 to secure protection of, and to
redress deprivations of, rights secured by the Fourth
and Fourteenth Amendments to the United States
Constitution as enforced by 42 U.S.C. § 1983, which
provides for the protection of all persons in their civil

Res.App.19a
rights and the redress of deprivation of rights under
color of law.
11. The jurisdiction of this Court is also invoked
under 28 U.S.C. § 1331 to resolve a controversy arising
under the Constitution and laws of the United States,
particularly the Fourth and Fourteenth Amendments
to the United States Constitution and 42 U.S.C. § 1983.
12. This Court has supplemental jurisdiction over
the state law claims asserted herein pursuant to 28
U.S.C. § 1367, since the claims form part of the same
case or controversy arising under the United States
Constitution and federal law.
13. Venue is proper under 28 U.S.C. § 1391(b)
because a substantial part of the events or omissions
giving rise to Plaintiffs’ claims occurred in this judicial
district.
FACTUAL ALLEGATIONS
14. Mr. Pratt was booked into the Jail on December
11, 2015. Mr. Pratt was placed in a general population
pod, J-16.
15. At 7:39am on December 12, 2015, Mr. Pratt
submitted a medical sick call note, through the Jail’s
electronic kiosk system, requesting to speak to a nurse
about “detox meds”. This is clear evidence that by
early in the morning of December 12, Mr. Pratt was
going into alcohol withdrawal. In any event, this kiosk
request was not responded to until two days later.
16. At 12:19pm on December 12, Mr. Pratt submitted a second kiosk request, as follows:
MY NAME IS TOMMY PRATT I CAME IN
YESTERDAY AND STARTED HAVING

Res.App.20a
WITHDRAWLS [sic] I NEED TO TRY AND
GET SOME DETOX MEDS
THANKYOU
17. At approximately 1:05pm on December 12,
2015, Nurse Karen Canter, an employee of Defendant
Armor and agent of the TCSO acting under color of
state law and within the scope of her employment,
conducted a drug and alcohol withdrawal assessment
of Mr. Pratt. As part of this assessment, Mr. Pratt
indicated that he had a serious alcohol problem. In
particular, Mr. Pratt advised Nurse Canter that he
had a habit of drinking 15-20 beers a day for “at least”
the past ten (10) years. The assessment tool further
indicates that Mr. Pratt was experiencing: “constant
nausea, frequent dry heaves and vomiting”, moderate
tremors, anxiety, restlessness, “drenching sweats” and
“severe diffuse aching of joints/muscles.” On the basis
of this assessment, Mr. Pratt was placed on a “Librium
protocol” and “seizure precautions” were ordered.
18. Librium is a sedative tranquilizer frequently
used for patients experiencing alcohol withdrawal.
19. At approximately 1:48pm on December 12, Mr.
Pratt was admitted to the Jail’s medical unit. Upon
admission, Nurse Gracie Beardon, an employee of
Defendant Armor and agent of the TCSO acting under
color of state law and within the scope of her employment, conducted a “mental health infirmary admission
assessment.” Nurse Beardon noted that Mr. Pratt’s
admitting diagnosis was “Detox”. Nurse Beardon
additionally noted that, upon admission, Mr. Pratt was
nauseated, slumped over, anxious, fearful and “unsteady
on his feet”. Nurse Beardon specifically acknowledged

Res.App.21a
that Mr. Pratt posed a “risk for injury” due to his detoxification and “high blood pressure”.
20. On December 13, 2015, Mr. Pratt was placed
on seizure precautions, which included an order that
his vital signs be taken every eight (8) hours.
21. At approximately 2:08am on December 14,
2015, another drug and alcohol withdrawal assessment
was conducted. This time, the assessment was done by
Nurse Patricia Deane, an employee of Defendant Armor
and agent of the TCSO acting under color of state law
and within the scope of her employment. This December 14 drug-and-alcohol withdrawal assessment clearly
indicated that Mr. Pratt’s symptoms were worsening
and becoming ever more severe. In this regard, the
December 14 assessment tool indicates that Mr. Pratt
was experiencing: “constant nausea, frequent dry heaves
and vomiting”, “severe” tremors “even with arms not
extended”, “acute panic states as seen in severe
delirium or acute schizophrenic reactions”, restlessness,
“drenching sweats”, “continuous hallucinations” and
disorientation for “place/or person”.
22. This assessment strongly suggested that Mr.
Pratt was suffering from delirium tremens, a lifethreatening condition related to alcohol withdrawal.
To any moderately trained medical professional, it would
be obvious that Mr. Pratt was suffering from delirium
tremens. Nevertheless, despite the obvious severity
and emergent nature of Mr. Pratt’s deteriorating
condition, he was not sent to a hospital or seen by a
physician. Indeed, it does not seem that Nurse Deane
even contacted a physician, despite the fact that the
assessment tool itself mandated that she do so. Overall,
there is no indication at this point that Mr. Pratt’s
detoxification was being supervised by a physician, as

Res.App.22a
required by Armor policy/National Commission on Correctional Healthcare (“NCCHC”) standards. No vital
signs were taken. No blood tests were performed.
23. Rather, at some unknown time on December
14, a Nurse Practitioner, Augustina Agadagba gave a
“phone order” to “start valium protocol”.
24. At approximately 3:44am on December 14,
2015, an unidentified Armor employee, acting within
the scope of his/her employment and under color of
state law, attempted to take Mr. Pratt’s vital signs. This
Armor employee noted that when he/she encountered
Mr. Pratt he was “tearing up” his cell and deliriously
stating that he was “locked in the store”. Mr. Pratt
was so disoriented and panicked that he could not sit
still to have his vitals taken. Again, these were clear
symptoms of delirium tremens, an emergent and lifethreatening condition. It was apparent that Mr. Pratt’s
withdrawal-related psychosis was getting worse to the
point that he posed an imminent threat of self-harm.
Still, the Armor employee did nothing to assist Mr. Pratt.
He was not taken to a hospital. He was not restrained.
He did not see a physician or psychiatrist. He was not
placed on suicide watch. No blood tests were performed.
Rather, Mr. Pratt was left to his own devices, while in
the throes of a dangerous withdrawal-related mental
breakdown (likely, delirium tremens), alone in a cell.
25. Despite the fact that Mr. Pratt was to have his
vital signs taken every eight (8) hours, the Armor
employees responsible for this task never once recorded
a complete set of vital signs for Mr. Pratt. No vital
signs at all were recorded on December 14, 15 or 16.
This failure not only violated policy and protocol, but
substantively deprived Mr. Pratt’s “caretakers” at the
Jail of necessary information in monitoring his condition.

Res.App.23a
Indeed, frequent vital signs are essential in monitoring
the health and assessing the needs of patients with
delirium tremens. Amor’s inability or refusal to take
the minimal step of assessing vital signs is additional
evidence of deliberate indifference to Mr. Pratt’s serious
medical needs.
26. There are two “Medical Sick Call Notes”, dated
December 14, 2015, in the “official” Armor medical chart,
which were purportedly recorded by Dr. Cutis McElroy.
Assuming that Dr. McElroy did see Mr. Pratt on December 14, as represented in the notes, the information in
those notes provides additional evidence of deliberate
indifference.
27. According to the “December 14” note, Dr. McElroy saw Mr. Pratt at around 10:30am. In the December 14 note, Dr. McElroy states:
Pt seen and evaluated. Came in 12/11/15 with
alcohol abuse and placed on Librium protocol
for alcohol withdrawal. Pt switched to valium
and received first dose this morning. Pt
reported to be found on floor pulling up tile
with approximately 2cm forehead laceration.
Small, < 1cm laceration left lateral elbow
area and a laceration < 1cm on right mid
right posterior forearm. Some scratches on
dorsum of nose. No other facial injury. Pt
awake, confused, talking about what movie
are we watching tonight. No history of
witnessed fall or put inflicting injury to
himself. Pool of blood under sink in cell.
(emphasis added). The information that Mr. Pratt, who
was known to be detoxing, was found on the floor, with
a “pool of blood” under the sink, and “pulling up tile”

Res.App.24a
after suffering some sort of head injury, would be
information that even a layperson would recognize as
an emergency medical situation. Further, there was
additional information, in the medical record, from
earlier that morning, that Mr. Pratt was continuously
vomiting, hallucinating, suffering from severe tremors
and was in an acute panic state. All of this evidence
pointed to delirium tremens. Assuming Dr. McElroy
did see Mr. Pratt at 10:30am on December 14, it was
obvious that Mr. Pratt was experiencing life-threatening
withdrawal (delirium tremens) and/or brain injury,
and needed to be transferred immediately to a licensed
acute care facility. Dr. McElroy’s failure to send Mr.
Pratt to a hospital evinces deliberate indifference to
his serious and obvious medical and mental health
needs. Indeed, Dr. McElroy’s failure to send Mr. Pratt
to the hospital under these conditions was a violation
of the minimal standards of the National Commission
on Correctional Healthcare (“NCCHC”) (J-G-06), which
TCSO and Armor have adopted as policy. In addition,
Dr. McElroy did not provide Mr. Pratt with any neurological diagnostics or consult, despite the obvious need.
And Dr. McElroy did not refer Mr. Pratt to a psychiatrist, despite the obvious need. He did not order vital
signs be taken or that Mr. Pratt’s blood be tested.
These failures too are evidence of deliberate indifference
to Mr. Pratt’s serous medical and mental health needs.
28. Assuming that Dr. McElroy saw Mr. Pratt at
10:30am on December 14, 2015, there is no explanation
as to why he waited over eight (8) hours after Nurse
Deane’s dire assessment, and nearly seven hours after
the failed attempt to take Mr. Pratt’s vital signs, to
lay eyes on this patient. It is unconscionable that Mr.
Pratt was left to suffer in his cell for this period of time

Res.App.25a
without even seeing a physician. Each passing hour was
another lost opportunity to get Mr. Pratt to an emergency room to receive the level of care and assessment
he obviously needed. With each passing hour without
this ER-level care, Mr. Pratt was inching closer to a
medical calamity that would alter the rest of his, and
his family’s, life.
29. Armor employee Nurse Margarita Brown
encountered Mr. Pratt in the medical unit at around
4:07pm on December 14. Nurse Brown reported that
Mr. Pratt was “angry”, “anxious” and “confused”; and
staring and “reaching into space.” Nurse Brown further
noted that Mr. Pratt lacked judgment and had “impaired
short term memory.” Lastly, Nurse Brown charted that
Mr. Pratt needed assistance with “activities of daily
living.”
30. The failures of the medical staff, beginning with
Nurse Deane’s assessment and continuing through
Dr. McElroy’s dubious “evaluation” and Nurse Brown’s
observations, to send Mr. Pratt to an emergency room
for medical intervention, or even order neurological
testing or a psychiatric visit, constitutes deliberate indifference. And this deliberate indifference was a proximate
cause of Mr. Pratt’s unnecessary and prolonged pain
and suffering; continuing and permanent disability;
and medical expenses.
31. At approximately 8:49am on December 15,
2015, Kathy Loehr, a purported “Licensed Professional
Counselor” or “LPC”, conducted an initial mental health
evaluation of Mr. Pratt. During the evaluation, Mr. Pratt
reported that he was “detoxing from alcohol.” Ms. Loehr
observed that Mr. Pratt was “shaky” and had “difficulty
following directions”. Mr. Pratt was making “slow, shaky
movements.” Loehr charted that Pratt “present[ed]

Res.App.26a
with a wound on his forehead from a self inflicted injury
yesterday” and that the wound “[a]ppear[ed] unintentional” as Pratt was “detoxing and did not appear
oriented yesterday.” Notably, Ms. Loehr was unable to
complete her evaluation because Mr. Pratt had deteriorated to the point that he had “difficulty answering
questions.” Mr. Pratt was clearly still disoriented as
he stated his mistaken belief that he was at a detox
center and that it was Sunday (when, in fact, December 15, 2015 was a Tuesday). He appeared lethargic with
poor eye contact. His memory, insight, judgment and
concentration were all noted to be “poor”.
32. Despite Mr. Pratt’s obvious signs and symptoms of brain injury, coupled with his ongoing struggle
with the effects of alcohol withdrawal, Ms. Loehr did
not send Mr. Pratt to a hospital. Mr. Pratt was not seen
by a physician. There is no indication that Ms. Loehr
even contacted a physician. Instead, demonstrating
disregard for the seriousness of the situation, Ms. Loehr
educated Mr. Pratt “on getting clothes” and reportedly
“encouraged vital signs to get medication.” In other
words, Ms. Loehr provided no care at all, and did nothing
to assure that Mr. Pratt’s emergent and life-threatening
condition was appropriately addressed.
33. There is also a “Medical Sick Call” note, dated
December 15, 2015, recorded by Dr. McElroy, in the
version of Mr. Pratt’s chart later sent to Saint John.
According to the December 15 note, which is time
stamped at 3:40pm, Mr. Pratt was reported to “have
been found underneath sink [in his cell] with laceration
[on] mid forehead.” Taking the December 15 note at face
value, coupled with the known history of Mr. Pratt’s
symptoms of delirium tremens and/or brain injury,
Dr. McElroy should have, again, sent Mr. Pratt to a

Res.App.27a
hospital on December 15. His failure to due so was yet
another instance of deliberate indifference to a serious
medical need.
34. At approximately 12:00am on December 16,
2016, Nurse LeeAnn Bivins, an employee of Defendant
Armor and agent of the TCSO acting under color of state
law and within the scope of her employment, observed
that Mr. Pratt “WOULD NOT GET UP . . . .” However,
Nurse Bivins failed to check Mr. Pratt’s vital signs,
including his pulse and respiration.
35. Just before 1:00am on December 16, 2015, a
TCSO Detention Officer (“D.O.”) discovered Mr. Pratt
“lying on [his] bed [and] not moving.” The D.O. called
for a nurse. Angela McCoy, a Licensed Practical Nurse
(or “LPN”), an employee of Defendant Armor and agent
of the TCSO acting under color of state law and within
the scope of her employment, responded. Upon entering
Mr. Pratt’s cell, Nurse McCoy found that he had no pulse
or respiration. He was completely unresponsive. She
initiated CPR and called a “medical emergency” at
around 1:00am. Shortly thereafter, first responders from
the fire department and EMSA arrived, and continued
CPR. Through these measures, Mr. Pratt was resuscitated at around 1:15am, and was rushed to Saint
John Medical Center in Tulsa.
36. According to the EMSA Report, Mr. Pratt had
suffered a cardiac arrest. In pertinent part, the narrative portion of the EMSA Report states: (A) “Jail Medical Staff report ‘[Mr. Pratt] hit his head 4 days ago,
and has been non-verbal and lethargic ever since”; (B)
“Staff reports [Pratt] has been going through withdrawals, and been on suicide watch as well”; (C) “[Pratt]
has a large hematoma to his forehead, that staff reports
‘[i]s from his fall 4 days ago’”.

Res.App.28a
37. Mr. Pratt was admitted to Saint John, where
he remained until January 1, 2016. Upon discharge, Mr.
Pratt was diagnosed with: (A) cardiopulmonary arrest
(PEA) secondary to presumed seizure during incarceration; (B) acute renal failure: Secondary to hypotension
and Rhabdomyolysis; (C) Todd’s paralysis; (D) agitation;
(E) anoxic brain injury; (F) AKI: Secondary to hypotension and rhabdomyolysis; (G) hyponatremia; (H)
transaminitis: Acute; and (I) Head laceration: Acute.
38. Before Mr. Pratt was admitted to the Jail on
December 11, 2015, he had no history of seizure disorder, brain damage or severe mood swings. Since
suffering from untreated brain injury and delirium
tremens which led to cardiac arrest/severe seizures at
the Jail, Mr. Pratt is permanently disabled. He continues
to suffer from severe seizure disorder, memory loss,
extreme mood swings and anger and verbal/ communication delays/deficits. He is now unable to work and
lives with his parents. He requires assistance with
everyday life activities. He is incapable of safely living
on his own. Mr. Pratt is just 36 years old. At the time
of his incarceration, and resulting injuries, Mr. Pratt
was 35.
39. Mr. Pratt is permanently disabled and has
incurred and will continue to incur lost wages and
medical expenses. In addition, Mr. Pratt has suffered
and will continue to suffer physical and mental pain
and anguish. These injuries and damages are a direct
and proximate cause of Defendants’ deliberate indifference and negligence as described supra.
40. The deliberate indifference to Mr. Pratt’s serious
medical needs, mental health and safety, as summarized
supra, was in furtherance of and consistent with: a)

Res.App.29a
policies, customs, and/or practices which TCSO promulgated, created, implemented or possessed responsibility
for the continued operation of; and b) policies, customs,
and/or practices which ARMOR developed and/or had
responsibility for implementing.
41. There are longstanding, systemic deficiencies
in the medical and mental health care provided to
inmates at the Tulsa County Jail. Former Sheriff Glanz
has long known of these systemic deficiencies and the
substantial risks to inmates like Mr. Pratt, but failed
to take reasonable steps to alleviate those deficiencies
and risks.
42. For instance, in 2007, the National Commission
on Correctional Health Care (“NCCHC”), a corrections
health accreditation body, conducted an on-site audit
of the Jail’s health services program. At the conclusion
of the audit, NCCHC auditors reported serious and
systemic deficiencies in the care provided to inmates,
including failure to perform mental health screenings,
failure to fully complete mental health treatment
plans, failure to triage sick calls, failure to conduct
quality assurance studies, and failure to address health
care needs in a timely manner. NCCHC made these
findings of deficient care despite Former Sheriff Glanz’s/
TCSO’s efforts to defraud the auditors by concealing
information and falsifying medical records and charts.
43. Former Sheriff Glanz failed to change or
improve any health care policies or practices in response
to NCCHC’s findings.
44. There is a long-standing failure to secure adequate mental health care, and to properly classify and
protect inmates with obvious and serious mental health
needs. For example, in 2009, TCSO was cited by the

Res.App.30a
Oklahoma State Department of Health for violation of
the Oklahoma Jail Standards in connection with the
suicide death of an inmate with schizophrenia.
45. In August of 2009, the American Correctional
Association (“ACA”) conducted a “mock audit” of the
Jail. See Gondles Report at 007. The ACA’s mock audit
revealed that the Jail was non-compliant with “mandatory health standards” and “substantial changes” were
suggested. Id. Based on these identified and known
“deficiencies” in the health delivery system at the Jail,
the Jail Administrator sought input and recommendations from Elizabeth Gondles, Ph.D. (“Dr. Gondles”).
Id. at 1 and 7. Dr. Gondles was associated with the ACA
as its medical director or medical liaison. See Robinette
Depo. at 35:10-21. After reviewing pertinent documents,
touring the Jail and interviewing medical and correctional personnel, on October 9, 2009, Dr. Gondles
generated a Report, entitled “Health Care Delivery
Technical Assistance” (hereinafter, “Gondles Report”).
See Gondles Report. The Gondles Report was provided
to the Jail Administrator, Michelle Robinette. Id. at
001; Robinette Depo. at 48:9-16. As part of her Report,
Dr. Gondles identified numerous “issues” with the
Jail’s health care system, as implemented by the Jail’s
former medical provider, CHC. See, e.g., Gondles Report
at 007, 10-19. After receiving the Gondles Report, Chief
Robinette held a conference-to discuss the Report—with
the Undersheriff, Administrative Captain and CHC/
CHM. Robinette Depo. at 50:20-24.
46. Among the issues identified by Dr. Gondles,
as outlined in her Report, were: (a) understaffing of
medical personnel due to CHM misreporting the average
daily inmate population; (b) deficiencies in “doctor/PA
coverage”; (c) a lack of health services oversight and

Res.App.31a
supervision; (d) failure to provide new health staff with
formal training; (e) delays in inmates receiving necessary
medication; (g) nurses failing to document the delivery
of health services; (h) systemic nursing shortages; (h)
failure to provide timely health appraisals to inmates;
and (i) 313 health-related grievances within the past
12 months. See, e.g., Gondles Report at 007, 10-19. Dr.
Gondles concluded that “[m]any of the health service
delivery issues outlined in this report are a result of the
lack of understanding of correctional healthcare issues
by jail administration and contract oversight and
monitoring of the private provider.” Id. at 22. Based
on her findings, Dr. Gondles “strongly suggest[ed] that
the Jail Administrator establish a central Office Bureau
of Health Services” to be staffed by a TCSO-employed
Health Services Director (“HSD”). Id. According to Dr.
Gondles, without such an HSD in place, TCSO could
not properly monitor the competency of the Jail’s
health staff or the adequacy of the health care delivery
system. Id.
47. Nonetheless, TCSO leadership chose not to
follow Dr. Gondles’ recommendations. See, e.g., Robinette Depo. at 71:20 – 72:7; Weigel Depo. at 53:6 – 54:14.
TCSO did not establish a central Office Bureau of
Health Services nor hire the “HSD” as recommended.

Id.

48. On October 28, 2010, Assistant District Attorney Andrea Wyrick wrote an email to Josh Turley,
TCSO’s “Risk Manager”. See Wyrick Email. In the email,
Ms. Wyrick voiced concerns about whether the Jail’s
medical provider, Defendant CHMO, a subsidiary of
CHC, was complying with its contract. Id. Ms. Wyrick
further made an ominous prognosis: “This is very
serious, especially in light of the three cases we have

Res.App.32a
now—what else will be coming? It is one thing to say
we have a contract . . . to cover medical services . . . It
is another issue to ignore any and all signs we receive of
possible [medical] issues or violations of our agreement
with [CHC] for [health] services in the jail. The bottom
line is, the Sheriff is statutorily . . .obligated to provide
medical services.” Id. (emphasis added).
49. NCCHC conducted a second audit of the Jail’s
health services program in 2010. After the audit was
completed, the NCCHC placed the Tulsa County Jail
on probation.
50. NCCHC once again found numerous serious
deficiencies with the health services program. As part
of the final 2010 Report, NCCHC found, inter alia, as
follows: “The [Quality Assurance] multidisciplinary
committee does not identify problems, implement and
monitor corrective action, nor study its effectiveness”;
“There have been several inmate deaths in the past
year. . . . The clinical mortality reviews were poorly
performed”; “The responsible physician does not document his review of the RN’s health assessments”;
“the responsible physician does not conduct clinical
chart reviews to determine if clinically appropriate
care is ordered and implemented by attending health
staff”; “ . . . diagnostic tests and specialty consultations
are not completed in a timely manner and are not
ordered by the physician”; “if changes in treatment
are indicated, the changes are not implemented . . . ”;
“When a patient returns from an emergency room, the
physician does not see the patient, does not review the
ER discharge orders, and does not issue follow-up
orders as clinically needed”; and “ . . . potentially suicidal
inmates [are not] checked irregularly, not to exceed 15
minutes between checks. Training for custody staff

Res.App.33a
has been limited. Follow up with the suicidal inmate
has been poor.” 2010 NCCHC Report (emphasis added).
51. Former Sheriff Glanz only read the first two
or three pages of the 2010 NCCHC Report. Former
Sheriff Glanz is unaware of any policies or practices
changing at the Jail in response to 2010 NCCHC Report.
52. Over a period of many years, Tammy Harrington, R.N., former Director of Nursing (“DON”) at the
Jail, observed and documented many concerning deficiencies in the delivery of health care services to
inmates. The deficiencies observed and documented
by Director Harrington include: chronic failure to
triage inmates’ requests for medical and mental health
assistance; a chronic lack of supervision of clinical
staff; and repeated failures of medical staff to alleviate
known and significant deficiencies in the health
services program at the Jail.
53. On September 29, 2011, the U.S. Department
of Homeland Security’s Office of Civil Rights and Civil
Liberties (“CRCL”) reported its findings in connection
with an audit of the Jail’s medical system – pertaining
to U.S. Immigration and Customs Enforcement (“ICE”)
detainees-as follows: “CRCL found a prevailing attitude
among clinic staff of indifference. . . . ”; “Nurses are
undertrained. Not documenting or evaluating patients
properly.”; “Found one case clearly demonstrates a
lack of training, perforated appendix due to lack of
training and supervision”; “Found two . . . detainees with
clear mental/medical problems that have not seen a
doctor.”; “[Detainee] has not received his medication
despite the fact that detainee stated was on meds at
intake”; “TCSO medical clinic is using a homegrown
system of records that ‘fails to utilize what we have

Res.App.34a
learned in the past 20 years”. “ICE-CRCL Report,
9/29/11 (emphasis added).
54. Director Harrington did not observe any
meaningful changes in health care policies or practices
at the Jail after the ICE-CRCL Report was issued.
55. On the contrary, less than 30 days later the
ICE-CRCL Report was issued, on October 27, 2011
another inmate, Elliott Earl Williams, died at the Jail
as a result of the truly inhumane treatment and reckless
medial neglect which defies any standard of human
decency. A federal jury has since enter a verdict holding
Sheriff Regaldo liable in his official capacity for the
unconstitutional treatment of Mr. Williams.
56. In the wake of the Williams death, which was
fully investigated by TCSO, Former Sheriff Glanz made
no meaningful improvements to the medical system.
This is evidence by the fact that yet another inmate,
Gregory Brown, died due to grossly deficient care just
months after Mr. Williams.
57. On November 18, 2011 AMS-Roemer, the Jail’s
own retained medical auditor, issued its Report to
Former Sheriff Glanz finding multiple deficiencies with
the Jail’s medical delivery system, including “[documented] deviations [from protocols which] increase the
potential for preventable morbidity and mortality.”
AMS-Roemer Report, 11/8/11 at CHM0171-72. AMSRoemer specifically commented on no less than six (6)
inmate deaths (including the death of Mr. Jernegan),
finding deficiencies in the care provided to each. Id. at
CHM0168-69; 0171
58. It is clear that Former Sheriff Glanz did little,
if anything, to address the systemic problems identified
in the November 2011 AMS-Roemer Report, as AMS

Res.App.35a
Roemer continued to find serious deficiencies in the
delivery of care at the Jail. For instance, as part of a
2012 Corrective Action Review, AMS-Roemer found
“[d]elays for medical staff and providers to get access
to inmates,” “[n]o sense of urgency attitude to see
patients, or have patients seen by providers,” failure
to follow NCCHC guidelines “to get patients to providers,” and “[n]ot enough training or supervision of
nursing staff.” Corrective Action Review at CHM1935
– 1938.
59. In November 2013, BOCC/TCSO/Former Sheriff Glanz retained ARMOR as the new private medical
provider. However, this step has not alleviated the
constitutional deficiencies with the medical system.
Medical staff is still undertrained and inadequately
supervised and inmates are still being denied timely
and sufficient medical attention. Bad medical and
mental health outcomes have persisted due to inadequate supervision and training of medical staff, and due
to the contractual relationship between BOCC/TCSO/
Former Sheriff Glanz and ARMOR (which provides
financial disincentives the transfer of inmates in need
of care from an outside facility). Former Sheriff Glanz
and ARMOR have known of the deficiencies, and the
substantial risks posed to inmates like Mr. Pratt, but
have failed to take reasonable steps to alleviate the
risks.
60. As alleged herein, there are deep-seated and
well-known policies, practices and/or customs of systemic, dangerous and unconstitutional failures to provide
adequate medical and mental health care to inmates at
the Tulsa County Jail. This system of deficient care—
which evinces fundamental failures to train and super-

Res.App.36a
vise medical and detention personnel—created substantial, known and obvious risks to the health and safety
of inmates like Mr. Pratt. Still, Sheriff Glanz and
ARMOR have failed to take reasonable steps to alleviate the substantial risks to inmate health and safety,
in deliberate indifference to Mr. Pratt’s physical health,
mental health, and safety, in deliberate indifference
to Plaintiff’s serious medical needs.
CLAIMS FOR RELIEF
FIRST CLAIM FOR RELIEF
CRUEL AND UNUSUAL PUNISHMENT IN VIOLATION OF
THE EIGHTH AND FOURTEENTH AMENDMENTS TO THE
CONSTITUTION OF THE UNITED STATES
(42 U.S.C. § 1983)

A.

Allegations Applicable to All Defendants

61. Plaintiff re-alleges and incorporate by reference
paragraphs 1 to 60, as though fully set forth herein.
62. Defendants knew, or it was obvious, that Mr.
Pratt was at significant risk of serious injury and
harm as set forth herein.
63. Defendants failed to provide adequate medical
care, mental health care and supervision to Mr. Pratt
while he was in the Tulsa County Jail.
64. Defendants’ acts and/or omission as alleged
herein, including but not limited to their failure to provide Mr. Pratt with adequate medical and mental
health supervision, assessment and treatment, and/or
or to assure that Mr. Pratt receive adequate medical
and mental health supervision, assessment and treatment, constitute deliberate indifference to Mr. Pratt’s

Res.App.37a
health and safety and resulted in his disability, and
significant injuries as stated herein.
65. As a direct and proximate result of Defendants’
conduct, Mr. Pratt experienced physical pain, severe
emotional distress, mental anguish, and the damages
alleged herein.
66. Mr. Pratt has incurred and will continue to
incur medical expenses and lost wages as a proximate
result of Defendants’ deliberate indifference.
67. The aforementioned acts and/or omissions of
the individually named Defendants were malicious,
reckless and/or accomplished with a conscious disregard
of Mr. Pratt’s rights thereby entitling Plaintiff to an
award of exemplary and punitive damages according
to proof.
B.

Official Capacity Liability (Sheriff Regalado)

68. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 67 as though fully set forth
herein.
69. The aforementioned acts and/or omissions of
Defendants in being deliberately indifferent to Mr.
Pratt’s health and safety and violating Mr. Pratt’s civil
rights were the direct and proximate result of customs,
practices, and policies for which TCSO promulgated,
created, implemented and/or possessed responsibility.
70. Such policies, customs and/or practices are specifically set forth in paragraphs 40-60, supra.
71. TCSO, through its continued encouragement,
ratification, approval and/or maintenance of the aforementioned policies, customs, and/or practices; in spite
of their known and obvious inadequacies and dangers;

Res.App.38a
has been deliberately indifferent to inmates’,
including Mr. Pratt’s, health and safety.
72. As a direct and proximate result of the aforementioned customs, policies, and/or practices, Mr. Pratt
suffered injuries and damages as alleged herein.
C.

Municipal Liability (ARMOR)

73. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 72 as though fully set forth
herein.
74. ARMOR is a “person” for purposes of 42 U.S.C.
§ 1983.
75. At all times pertinent hereto, ARMOR was
acting under color of state law.
76. ARMOR was endowed by Tulsa County with
powers or functions governmental in nature, such that
ARMOR became an instrumentality of the state and
subject to its Constitutional limitations.
77. ARMOR was charged with implementing and
assisting in developing the policies of TCSO with respect
to the medical and mental health care of inmates at
the Tulsa County Jail and have shared responsibility
to adequately train and supervise their employees.
78. There is an affirmative causal link between
the aforementioned deliberate indifference to Mr. Pratt’s
serious mental health needs, his safety, and the violations of his civil rights, and the above-described customs,
policies, and/or practices carried out by ARMOR.
79. ARMOR knew (either through actual or constructive knowledge), or it was obvious, that these
policies, practices and/or customs posed substantial risks
to the health and safety of inmates like Mr. Pratt.

Res.App.39a
Nevertheless, ARMOR failed to take reasonable steps
to alleviate those risks in deliberate indifference to
inmates’, including Mr. Pratt’s, serious mental health
needs.
80. ARMOR tacitly encouraged, ratified, and/or
approved of the unconstitutional acts and/or omissions
alleged herein.
81. There is an affirmative causal link between
the aforementioned customs, policies, and/or practices
and Mr. Pratt’s injuries and damages as alleged herein.
SECOND CLAIM FOR RELIEF
NEGLIGENCE
(DEFENDANTS ARMOR, MCELROY,
DEANE AND LOEHR)
82. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 81 as though fully set forth
herein.
83. ARMOR, McElroy, Deane and Loehr owed a
duty to Mr. Pratt, and all other inmates in custody, to use
reasonable care to provide inmates in need of medical
attention with appropriate treatment.
84. ARMOR, McElroy, Deane and Loehr breached
that duty by failing to provide Mr. Pratt with prompt
and adequate medical and mental health care despite
Mr. Pratt’s obvious needs.
85. ARMOR, McElroy, Deane and Loehr’s breaches
of the duty of care include, inter alia: failure to treat
Mr. Pratt’s serious health condition properly; failure to
conduct appropriate medical and mental health assessments; failure to create and implement appropriate
medical and mental health treatment plans; failure to

Res.App.40a
promptly and adequately evaluate Mr. Pratt’s health;
failure to properly monitor Mr. Pratt’s health; failure
to provide access to medical and mental health personnel capable of evaluating and treating his serious
health needs; failure to assure that Mr. Pratt received
necessary emergency care; and a failure to take
precautions to prevent Mr. Pratt from injury.
86. As a direct and proximate result of ARMOR’s
negligence, Mr. Pratt experienced physical pain, severe
emotional distress, mental anguish, and the damages
alleged herein.
87. As a direct and proximate result Defendants’
negligence, Mr. Pratt has suffered, and will continue
to suffer, real and actual damages, including medical
expenses, mental and physical pain and suffering,
emotional distress, lost wages and other damages in
excess of $75,000.00.
88. ARMOR is vicariously liable for the negligence
of its employees and agents.
89. ARMOR is also directly liable for its own negligence.
THIRD CLAIM FOR RELIEF
VIOLATION OF ARTICLE II § 9 OF THE CONSTITUTION OF
THE STATE OF OKLAHOMA CRUEL AND UNUSUAL
PUNISHMENT AND DELIBERATE INDIFFERENCE
90. Plaintiff re-alleges and incorporates by reference paragraphs 1 through 89, as though fully set forth
herein.
91. Article II § 9 of the Oklahoma Constitution
prohibits the infliction of cruel and unusual punishment.
Under the Oklahoma Constitution’s Due Process Clause,

Res.App.41a
Article II § 7, the right to be free from cruel and unusual
punishment extends to pre-trial detainees, like Mr.
Pratt, who have yet to be convicted of a crime (in addition
to convicted prisoners who are clearly protected under
Article II § 9).
92. The protections afforded to pre-trial detainees
under the Oklahoma Constitution’s Due Process Clause,
Article II § 7, include the provision of adequate mental
health care and protection from assault while in custody.
93. As set forth herein, Defendants knew, or it
was obvious, that Mr. Pratt was at significant risk of
serious injury and harm as set forth herein.
94. Defendants failed to provide adequate medical
care, mental health care and supervision to Mr. Pratt
while he was in the Tulsa County Jail.
95. Defendants’ acts and/or omission as alleged
herein, including but not limited to their failure to
provide Mr. Pratt with adequate medical and mental
health supervision, assessment and treatment, and/or
or to assure that Mr. Pratt receive adequate medical and
mental health supervision, assessment and treatment,
constitute deliberate indifference to Mr. Pratt’s health
and safety and resulted in his disability, and significant
injuries as stated herein.
96. At all times relevant, the jail personnel
described in this Complaint were acting within the scope
of their employment and under the direct control of
Defendant Glanz, the Sheriff of Tulsa County and/or
ARMOR.
97. Defendants’ failure to supervise and provide
adequate mental health care and protection to Mr. Pratt
was the direct and proximate cause of Mr. Pratt

Res.App.42a
injuries, physical pain, severe emotional distress, mental
anguish, and all other damages alleged herein.
PRAYER FOR RELIEF
98. WHEREFORE, based on the foregoing, Plaintiffs pray that this Court grant them the relief sought
including, but not limited to, actual damages in excess
of Seventy-Five Thousand Dollars ($75,000.00), with
interest accruing from date of filing of suit, punitive
damages in excess of Seventy-Five Thousand Dollars
($75,000.00), reasonable attorney fees, and all other
relief deemed appropriate by this Court.
Respectfully submitted,
/s/Daniel E. Smolen
Daniel E. Smolen, OBA #19943
Donald E. Smolen, II OBA #19944
Bob Blakemore, OBA #18656
Smolen, Smolen & Roytman, PLLC
701 S. Cincinnati Ave.
Tulsa, Oklahoma 74119
P: (918) 585-2667
F: (918) 585-2669
Attorneys for Plaintiff

